la
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. 9th Cir. Rule
36-3.
United States Court of Appeals, Ninth Circuit.
Trina R. PATTERSON, Plaintiff-Appellant,
v.
SELECT PORTFOLIO SERVICING, INC.; et
al., Defendants-Appellees.
No. 18-55134
Submitted May 21,2019-Filed May 29,2019
Attorneys and Law Firms
Trina R. Patterson, Pro Se
Steven M. Dailey. Esquire, Attorney, Kutak Rock LLP,
Irvine, CA, for Defendant - Appellee Select Portfolio
Servicing, Inc.
Matthew B. Learned. Esquire, Attorney, McCarthy &
Holthus LLP, San Diego, CA, for Defendant - Appellee
Quality Loan Service Corporation
Appeal from the United States District Court for the
Central District of California, Philip S. Gutierrez,
District Judge, Presiding, D.C. No. 5:17-cv-01049-PSGPLA
Before: THOMAS. Chief Judge,
FRIEDLAND. Circuit Judges.

MEMORANDUM-

LEAVY

and

2a
Trina R. Patterson appeals pro se from the district
court’s judgment dismissing her action alleging Fair
Debt Collection Practices Act (“FDCPA”) and state law
claims. We have jurisdiction under 28 U.S.C. § 1291. We
review de novo a dismissal under Federal Rule of Civil
Procedure 12(b)(6) for failure to state a claim. Kwan v.
SanMedica Int’l. 854 F.3d 1088. 1093 (9th Cir. 2017).
We affirm.
The district court properly dismissed Patterson’s
FDCPA claim under 15 U.S.C. § 1692f(6) because
Patterson failed to allege facts sufficient to show that
defendants’ conduct in enforcing a security interest was
unfair or unconscionable. See 15 U.S.C. § 1692f(6)
(prohibiting unfair or unconscionable conduct in
enforcing a security interest); Dowers v. Nationstar
Marta.. LLC. 852 F.3d 964. 971 (9th Cir. 2017)
(discussing protections for borrowers set forth in £
1692f(6)): see also Ashcroft v. Iqbal. 556 U.S. 662. 678.
129 S.Ct. 1937. 178 L.Ed.2d 868 (2009) (to avoid
dismissal, “a complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief that is
plausible on its face” (citation and internal quotation
marks omitted)).
The district court did not abuse its discretion by
declining to exercise supplemental jurisdiction over
Patterson’s state law claims after dismissing
Patterson’s FDCPA claims. See Satey v. JPMoraan
Chase & Co.. 521 F.3d 1087. 1091 (9th Cir. 2008)
(standard of review); Gird v. Las Vegas Metro. Police
Dep’t. 40 F.3d 1041.1046 (9th Cir. 1994) (explaining that
when “federal-law claims are eliminated before trial,
the balance of factors ... will point toward declining to
exercise jurisdiction over the remaining state law
claims”).

3a
The district court did not abuse its discretion bydenying Patterson’s motion to alter or amend judgment
because Patterson failed to establish any basis for such
relief. See Sch. Dist. No. 1J. Multnomah Cty.. Or. v.
ACandS. Inc.. 5 F.3d 1255. 1262-63 (9th Cir. 1993)
(setting forth standard of review and grounds for
reconsideration under Fed. R. Civ. P. 59(e)).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief, or
arguments and allegations raised for the first time on
appeal. See Padaett v. Wright. 587 F.3d 983. 985 n,2 (9th
Cir. 2009).
AFFIRMED.
Footnotes
*The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P.
34(a)(2).
ffThis disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit
Rule 36-3.

4a
10/17/2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-55134
TRINA R. PATTERSON, Plaintiff-Appellant,
v.
SELECT PORTFOLIO SERVICING, INC.;
et al., Defendants-Appellees.
D.C. No. 5:17-cv-01049-PSG
Central District of California,
Riverside
ORDER
Proceedings in this case shall be held in abeyance
pending issuance of the Supreme Court’s decision in
No. 17-1307, Obduskey v. McCarthy & Holthus LLP, et
al., or further order of the court.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

5a
United States District Court
for the Central District of California
Trina R. PATTERSON
v.
SELECT PORTFOLIO SERVICING, INC., Quality
Loan Service Corp.
Case No. 17-1049 PSG (PLAx)
Filed 01/03/2018
Attorneys and Law Firms
Trina R. Patterson, Rancho Cucamonga, CA, pro se.
Rebecca L. Wilson. Steven M. Dailey. Kutak Rock
LLP, Irvine, CA, for Select Portfolio Servicing, Inc.
Proceedings (In Chambers): The Court DENIES
Plaintiffs' Motion to Alter or Amend Judgment
Philip S. Gutierrez. United States District Judge
Before the Court is Plaintiff Trina R. Patterson's
(“Plaintiff’) motion to alter or amend the Court's
November 13, 2017 order granting Select Portfolio
Servicing, Inc. and Quality Loan Service Corp.'s
(“Defendants”) motion to dismiss Plaintiffs claims. See
Dkt. # 54 (“Mot”), Dkt. # 50 (“Order”). Defendant
timely opposed the motion, see Dkt. # 55 (“Opp”). The
Court finds the matter appropriate for decision without
oral argument. See Fed. R. Civ. P. 78(b): L.R. 7-15.
After considering the moving papers, the Court
DENIES the motion.

6a
II. Legal Standard
Two legal standards govern Plaintiffs' Motion for
Reconsideration: Federal Rules of Civil Procedure 59(e)
and 60(b), and Local Rule 7-18.
A. Federal Rules of Civil Procedure 59(e) and 60(b)
The Federal Rules of Civil Procedure do not
expressly recognize a “motion for reconsideration.”
Clouah v. Rush. 959 F.2d 182. 186 n. 4 (10th Cir. 1992).
Instead such a motion is typically treated as a motion to
alter or amend a judgment under Federal Rule of Civil
Procedure 59(e) or a motion for relief from judgments
or orders under Federal Rule of Civil Procedure 60(b).
See Computerized Thermal Imaging. Inc, v.
Bloomberg. L.P.. 812 F.3d 1292. 1296 n. 3 (10th Cir.
2002).

Rules 59(e) and 60(b) both provide a number of
grounds for relief. See Chase v. Valenzuela. No. CV 159558 BRO (FFMx). 2016 WL 1714878. *1-2 (C.D. Cal.
Mar. 11. 2016). “The Ninth Circuit has held that
reconsideration is appropriate under Rule 59(e) if (1)
the district court is presented with newly discovered
evidence, (2) the district court committed clear error or
made an initial decision that was manifestly unjust, or
(3) there is an intervening change in controlling law.”
Id. at *1 (citing School Dist. No, 1J. Multnomah Ctu..
Or. v. ACandS. Inc.. 5 F.3d 1255. 1263 (9th Cir. 1993)).
Among the grounds for relief provided by Rule 60(b)
are mistake, surprise, or excusable neglect; newly
discovered evidence that, with reasonable diligence,
could not have been discovered in time; fraud,
misrepresentation, or misconduct; that the judgment is
void; that the judgment has been satisfied, released, or
discharged; and “any other reason that justifies relief.”
Fed. R. Civ. P. 60(b). However, courts routinely deny
motions for reconsideration when the motion presents

7a
“no arguments that had not already been raised.” See
Buckland v. Barhart, 778 F.2d 1386. 1388 (9th Cir.
1985).
B. Local Rule 7-18
Local Rule 7-18 provides:
A motion for reconsideration of the decision on
any motion may be made only on the grounds of
(a) a material difference in fact or law from that
presented to the Court before such decision that
in the exercise of reasonable diligence could not
have been known to the party moving for
reconsideration at the time of such decision, or
(b) the emergence of new material facts or a
change of law occurring after the time of such
decision, or (c) a manifest showing of a failure to
consider material facts presented to the Court
before such decision. No motion for
reconsideration shall in any manner repeat any
oral or written argument made in support of or
in opposition to the original motion.
Plaintiff states that the Court should alter or
amend its judgment pursuant to ground three, to
prevent manifest injustice and to correct an error of
fact or law. She argues that the Court committed a
manifest error of law in its analysis of whether
Defendants are “debt collectors” under the Fair Debt
Collection Practices Act (“FDCPA”). Mot. 4-7.
Plaintiff repeats the same argument she brought
in her complaint, her first amended complaint, and her
opposition to Defendants' motion to dismiss: that non-

8a
judicial foreclosure activities constitute debt collection
under the FDCPA. Mot. 4-7; see also Dkt. # 1,
Complaint, Dkt. # 17, First Amended Complaint, Dkt.
# 31, Opposition to Defendant's Motion to Dismiss, Dkt.
#31. The Court has already spoken at length on this
issue in its November 13 order, and agrees with
Defendants that “Plaintiff does not submit any newly
discovered evidence, nor does she demonstrate the
Court committed clear error in any manner.” Opp. 6.
The Court therefore DENIES the motion to
alter and/or amend its judgment dismissing Plaintiffs
case.
IT IS SO ORDERED.

9a
United States District Court
for the Central District of California
Trina R. PATTERSON
v.
SELECT PORTFOLIO SERVICING, et al
Case No. 17-CV-01049 PSG (PLA)
Filed 11/13/2017
Attorneys and Law Firms
Trina R. Patterson, Rancho Cucamonga, CA, pro se.
Rebecca L. Wilson. Steven M. Dailey. Kutak Rock
LLP, Irvine, CA, Leticia C. Butler. Melissa Robbins
Coutts. McCarthy and Holthus LLP, San Diego, CA,
for Select Portfolio Servicing, et al.
Proceedings (In Chambers): The Court GRANTS
Defendants' Motion to Dissmiss
Philip S. Gutierrez. United States District Judge
Before the Court is Defendant Select Portfolio
Servicing, Inc.'s second amended motion to dismiss
Plaintiffs first amended complaint and each claim
therein (Dkt. #39), and second amended motion to
strike allegations regarding punitive damages and
attorneys' fees. Dkt. #40. Defendant Quality Loan
Service Corporation joins in the motion to dismiss (Dkt.
# 43). The Court finds the matter appropriate for
decision without oral argument. See Fed. R. Civ. P.
78(b): L.R. 7-15. After considering the moving papers,
the Court GRANTS the motion to dismiss.

10a
I. Background
On July 26, 2017, Plaintiff Trina Patterson
(“Plaintiff’) filed a First Amended Complaint (“FAC”)
against Defendants Select Portfolio Servicing, Inc.,
Quality Loan Service Corporation, and Does 1-10
(“Defendants”). Dkt. # 17. The FAC asserts claims for
(1) Violation of the Fair Debt Collections Practices Act
(“FDCPA”), 15 U.S.C. § 1692. et. seq.: (2) violation of 15
U.S.C. § 1692f(6): (3) cancellation of instruments; and
(4) violation of California Business & Professions Code
§ 17200. et. seq. See generally FAC.
Defendants filed a motion to dismiss and a
motion to strike portions of the Plaintiffs FAC on July
27, 2017. Dkts. # 26, 27. On September 18, 2017, the
Court denied Defendants' motions to dismiss for failure
to comply with Local Rule 7-3. Dkt. # 38. Defendant
Select Portfolio Servicing, Inc. (“SPS”) filed a renewed
motion to dismiss the FAC, in which Quality Loan
Service (“QLS”) joins, and a renewed motion to strike
Plaintiffs allegations regarding attorneys' fees and
punitive damages on September 26, 2017. Dkts. # 39, 43,
40.
Plaintiff alleges she is the owner of the real
property located at 13066 Norcia Drive, Rancho
Cucamonga, CA 90017 (“Property”). FAC 3. On
January 31, 2006, she obtained a loan in the amount of
$1,000,000.00 from Homecomings Financial Network,
Inc., which was secured by the Property. Id. 8. A Deed
of Trust was recorded for that loan on February 6,2006,
with MERS as the beneficiary and Landamerica
Lawyers Title Company as the trustee. Id. 9. On April
23, 2008, a Notice of Default was recorded on the
Property. Defendant's Motion to Dismiss (“Mot”) 2.
The Deed of Trust was assigned to LaSalle Bank N.A.;

11a
on June 5, 2008, QLS was substituted as successor
trustee. Id.
In 2007, Plaintiff stopped making payments on
her loan and fell into default. FAC 9. Plaintiff alleges
that Defendant SPS began servicing her loan in
October 2013. FAC 9; Mot. 2. By December 18, 2014,
Plaintiff was in default on the loan in the amount of
$349,651.03. FAC Ex. D.
Plaintiff began receiving correspondence from
SPS regarding the debt, including mortgage
statements, acknowledgments of her correspondence,
information relating to the planned foreclosure sale,
and home retention options—communications she
deems “harassment.” See generally FAC; id. 9. She
further alleges that Defendant QLS executed and
recorded a Notice of Default on the Property followed
by a Notice of Trustee's Sale. FAC 11. Plaintiffs claims
stem from her allegation that SPS and QLS are not
legally entitled to collect on the debt, service the debt,
or foreclose on her home. Id.
II. Legal Standard
To survive a motion to dismiss under Rule
12(b)(6), a complaint must “contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal. 556 U.S. 662.
678 (2009) (quoting Bell Atl. Corp. v. Twomblv. 550 U.S.
544, 570 (2007) ). In assessing the adequacy of the
complaint, the court must accept all pleaded facts as
true and construe them in the light most favorable to
the plaintiff. See Turner v. City & Ctu. of San
Francisco. 788 F.3d 1206. 1210 (9th Cir. 2015): Cousins
v. Lockuer. 568 F.3d 1063. 1067 (9th Cir. 2009). The
court then determines whether the complaint “allows

12a
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Iqbal.
556 U.S. at 678.
Where, as here, a plaintiff proceeds pro se, the
Court has an obligation to construe his complaint
liberally. See Bernhardt v. Los Angeles Ctv.. 339 F.3d
920, 925 (9th Cir. 2003) (“Courts have a duty to construe
pro se pleadings liberally including pro se motions as
well as complaints.”).
III. Discussion
Defendants raise multiple grounds for dismissal,
including failure to state a claim, res judicata, lack of
standing, and judicial estoppel. See generally Mot. The
Court determines that Plaintiffs U.S.C. § 1692 claims
fail as a matter of law, so it need not reach the merits of
Defendants' other arguments.
A. Violation of 15 U.S.C. § 1692 (First Cause of Action)
Plaintiff claims that “Defendants SPS and QLS
are debt collectors that are attempting to collect a
debt,” which puts its actions within the FDCPA. Opp. 6;
see generally FAC.* She argues that Defendants'
correspondence, alleged debt collection attempts, and
foreclosure activity are therefore “debt collection” and
in violation of the FDCPA. See generally FAC.
The purpose of the FDCPA is to eliminate
abusive debt collection practices, including the
harassment and abuse of consumers. 15 U.S.C. §
1692(e). “To state a claim for violation of the FDCPA, a
plaintiff must allege that the defendant is a ‘debt
collector’ collecting a ‘debt.’ ” Izenbera v. ETS Servs..
LLC.. 589 F. Suop. 2d 1193. 1198 (C.D. Cal. 2008): 15

13a
U.S.C. §§ 1692d-1692f. The FDCPA defines a “debt
collector” as “any business the principal purpose of
which is the collection of any debts, or [one] who
regularly collects or attempts to collect, directly or
indirectly, debts owed or due or asserted to be owed or
due another.” Izenberg. 589 F. Supp. 2d at 1198-99; 15
U.S.C. § 1692a(6).
Courts have consistently held that loan servicers
are not debt collectors under the FDCPA. Bank of N.Y.
Mellon Tr. Co.. N.A. v. Henderson. No. 15-5186. 2017
WL 2883744. at *2 (D.C. Cir. July 7. 2017) (finding that
the bank is not a debt collector under the FDCPA);
Niborg v. CitiMortgage. Inc.. No. C 17-5155 BHS. 2017
WL 3017633. at *2 (W.D. Wash. July 17. 2017) (“[A]
holder on a note and deed of trust does not constitute a
‘debt collector’ under the FDCPA.”); Altenburg v.
Caliber Home Loans. Inc.. No. RDB 16-3374, 2017 WL
2733803. at *2 (D. Md. June 26. 2017). Plaintiff argues
that if a debt is assigned for servicing after default has
occurred, the service provider is a debt collector. FAC
15; Opp. 7-8. The cases she cites to, however, have been
abrogated by the United States Supreme Court in
Henson v. Santander Consumer USA. Inc.. 137 S. Ct.
1718 (2017). The Court did not distinguish between
those who purchased the debt before it was in default
and those who purchased it afterward, and held that
the purchaser of a defaulted loan may collect on that
loan without becoming a debt collector under the
FDCPA. See id. at 1724.
Furthermore, the FDCPA governs only those
activities that comprise “debt collection.” See § 1692
(the FDCPA was enacted “to protect consumers
against debt collection abuses.”). District courts in the
Ninth Circuit “have consistently concluded that
nonjudicial foreclosure actions do not constitute debt

14a
collection under the FDCPA to the extent that a
defendant's actions are limited to those necessary to
effectuate the nonjudicial foreclosure.” Fitzgerald v.
Bosco Credit. LLC. No. CV 16-01473 MEJ. 2016 WL
3844333, at *5 (N.D. Cal. July 15. 2016). That is because
“[foreclosing on a trust deed is distinct from the
collection of the obligation to pay money... [pjayment of
funds is not the object of the foreclosure action. Rather,
the lender is foreclosing its interest in the property.”
Lobato v. Acqura Loan Servs.. No. ll-cv-2601 WQH
(JMA). 2012 WL 607624. at *5 (S.D. Cal. Feb. 23. 2012):
see also Landavan v. Washington Mutual Bank. No.
C-09-00916 RMW. 2009 WL 3047238. at *2 (N.D. Cal.
Sept. 18. 2009) (“A claim cannot arise under the
FDCPA based upon the lender enforcing its security
interest under the subject deed of trust because
foreclosing on a mortgage does not constitute an
attempt to collect a debt for purposes of the FDCPA.”);
Barry v. Wells Fargo Home Morto.. No. CV 15-04606
BLF, 2017 WL 1133516. at *4 (N.D. Cal. Mar. 27. 2017)
(noting that “a non-judicial foreclosure does not
constitute debt collection under the FDCPA”); Jelsina
v. MIT Lending. No. 10-CV-416 BTM (NLS). 2010 WL
2731470, at *5 (S.D. Cal. July 9. 2010) (holding that
sending a Notice> of Trustee's Sale is not actionable
under the FDCPA because “foreclosing on [a] property
pursuant to a deed of trust is not the collection of a
‘debt’ within the meaning of the FDCPA”) (citations
omitted).
The Ninth Circuit itself has held that lenders
and servicers who are engaged in foreclosure
proceedings pursuant to a deed of trust are not engaged
in debt collection within the meaning of the FDCPA.
See, e.g., Dowers v. Nationstar Mortg.. LLC. 852 F.3d
964. 969-70 (9th Cir. 2017): Ho v. ReconTrust Co.. NA.

15a
858 F.3d 568. 571-72 (9th Cir. 2016) (“[Ajctions taken to
facilitate a non-judicial foreclosure, such as sending the
notice of default and notice of sale, are not attempts to
collect ‘debt’ as that term is defined by the FDCPA.”).
Plaintiff alleges that Defendants are debt
collectors attempting to collect mortgage payments,
and in so doing engaged in unlawful collection practices
in violation of the FDCPA. See, e.g., FAC 12-14. The
abuse and harassment Plaintiff alleges include, inter
alia, that “Defendant... continuously threatens Plaintiff
by scheduling foreclosure dates,” Opp. 9; mailing her
monthly mortgage statements, FAC 12; posting a
foreclosure notice on her door, FAC 11; and sending
her mortgage statements even after she asked them to
stop, FAC 13. As the Ninth Circuit has held, actions
taken in furtherance of foreclosure proceedings are not
debt collection within the FDCPA.
B. Violation of § 1692f(6) (Second Cause of Action)
Plaintiffs second cause of action asserts a
violation of section § 1692f(6). “by perpetrating as
‘creditors’ by threatening to proceed with a non judicial
[sic] foreclosure action on Plaintiffs Property when
they have no present right to possession of the
Property claimed as collateral through an enforceable
security interest and there is no present intention to
take possession of the property.” Thus, Plaintiff claims,
§ 1692f(6) “prohibits non-judicial action to dispossess
Plaintiff from her home without a legal ability to do so.”
FAC | 24. Section 1692f(6) states that such non-judicial
action is prohibited “if there is not a security
instrument used as collateral, if there is no intention to
take possession, or if the property is exempt by law
from dispossession or disablement.” 15 U.S.C. 1692f(6).
Plaintiffs allegation that Defendants are in violation of
this section lacks merit. Defendants sought to foreclose

16a
on the DOT based on Plaintiffs default on the Loan and
nine years of non-payment. Therefore, there is (a) a
security instrument used as collateral (see FAC 11); (b)
Defendants did intend to take possession of the
Property (see FAC 11); and (c) the Property is not
exempt from dispossession. Even if Plaintiff could
establish Defendants are debt collectors under the
FDCPA, Plaintiff alleges no facts that would support a
violation of § 1692f(6).
Plaintiff relies on the non-judicial foreclosure to
allege violations of the FDCPA, but has failed to
establish Defendants were debt collectors engaged in
debt collection under the Act. As a matter of law, then,
Plaintiff has failed to state a claim for violations of the
FDCPA, and Defendants' motion to dismiss the first
and second causes of action is GRANTED.
C. State-Law Claims
A district court “may decline to exercise
supplemental jurisdiction” if it “has dismissed all claims
over which it has original jurisdiction.” 28 U.S.C. §
1367(c)(3). “[I]n the usual case in which all federal-law
claims are eliminated before trial, the balance of factors
to be considered under the pendent jurisdiction
doctrine—judicial economy, convenience, fairness, and
comity—will point toward declining to exercise
jurisdiction over the remaining state-law claims.”
Sanford v. MemberWorks. Inc.. 625 F.3d 550. 561 (9th
Cir. 2010) (citation omitted). Plaintiffs remaining
actions for cancellation of instruments and violation of
California Business and Professions Code § 17200
(California's Unfair Competition Law) arise under state
law. See generally FAC. The court declines to exercise

17a
jurisdiction over the supplemental state law claims
pursuant to 28 U.S.C. § 1367(c)('3).
D. Leave to Amend
Whether to grant leave to amend rests in the
sound discretion of the trial court. See Bonin v.
Calderon. 59 F.3d 815. 845 (9th Cir. 1995). The Court
considers whether leave to amend would cause undue
delay or prejudice to the opposing party, and whether
granting leave to amend would be futile. See SissetonWahpeton Sioux Tribe v. United States. 90 F.3d 351.
355 (9th Cir. 1996). Generally, dismissal without leave
to amend is improper “unless it is clear that the
complaint could not be saved by any amendment.”
Jackson v. Carey. 353 F.3d 750, 758 (9th Cir. 2003).
As a matter of law, Defendants are not “debt
collectors” under the FDCPA, so amendment to
Plaintiffs first two causes of action would be futile. The
Court therefore GRANTS Defendants' motions to
dismiss those claims without leave to amend.
Defendant's motion to strike the request for punitive
damages and attorneys' fees is therefore rendered
MOOT.
IT IS SO ORDERED.

18a
9/6/2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-55134
TRINA R. PATTERSON, Plaintiff-Appellant,
v.
SELECT PORTFOLIO SERVICING, INC.;
et al., Defendants-Appellees.
ORDER
Before:

THOMAS, Chief Judge, LEAVY and
FRIEDLAND, Circuit Judges.

The full court has been advised of the petition for
rehearing en bane and no judge has requested a vote on
whether to rehear the matter en bane. See Fed. R.
App. P. 35.
Patterson's petition for panel rehearing and petition for
rehearing en bane (Docket Entry No. 24) are denied.
No further filings will be entertained in this closed case.

